TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Evaluation of the Characteristics of
                          Unnecessarily Filed Individual
                               Income Tax Returns



                                         August 17, 2007

                              Reference Number: 2007-40-130




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 17, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Evaluation of the Characteristics of Unnecessarily
                             Filed Individual Income Tax Returns (Audit # 200640037))

 This report presents the results of our review to determine the steps the Internal Revenue Service
 (IRS) has taken or plans to take to reduce the number of unnecessary tax returns filed, including
 the means used to notify and educate taxpayers that they may no longer be required to file tax
 returns. This audit was included in our 2007 Annual Audit Plan.

 Impact on the Taxpayer
 Unless exempt, every individual with gross income that equals or exceeds certain limits for a
 taxable year is required to file a Federal income tax return. However, many people who do not
 meet the filing requirements still file Federal income tax returns, either to obtain a refund of
 taxes already paid or because they do not understand the law. To reduce the cost to taxpayers
 who file these tax returns, the IRS should direct them to free electronic filing (e-filing).

 Synopsis
 Our evaluation of a statistical sample of tax returns filed for Tax Years 2003 through 2005
 showed more than 8 million individual income tax returns each year were filed unnecessarily.
 For the purposes of this report, an unnecessary tax return is defined as a return filed either to
 obtain a refund of taxes already paid or because the individual did not understand the tax law,
 even though the individual’s income did not meet the filing threshold. Collectively, taxpayers
 spent an average of $390 million and 75 million hours per year preparing and filing these
 unnecessary tax returns. The cost to taxpayers includes both time and money to prepare and file
 the tax returns (including fees paid to preparers). In turn, the IRS spent an average of $11
 million to process the unnecessary tax returns filed each year.
                 Evaluation of the Characteristics of Unnecessarily Filed Individual
                                        Income Tax Returns



Taxpayers may file unnecessary tax returns only to obtain a refund of taxes already paid or
because they do not understand the tax law. Fifteen percent of the unnecessary tax returns filed
did not generate a refund, while 85 percent of these returns were filed to obtain a full refund of
withheld taxes. More than one-half of those filing to obtain a refund were under age 21, and
76 percent of those under age 21 indicated they could be claimed as dependents on other
taxpayers’ returns. These taxpayers would have been exempt from tax withholding because they
earned less income than the amount required to file a return and they could be claimed as
dependents on other taxpayers’ return. More than 60 percent of the unnecessary tax returns were
filed on paper.
Due to concerns about the potential negative consequences of advising taxpayers to claim
exemption from withholding, we are making no related recommendations at this time.
Nevertheless, the IRS could, at a minimum, reduce its burden if taxpayers moved from preparing
and submitting their returns on paper to e-filing.
The IRS has a legally mandated goal to have 80 percent of Federal tax and information returns
electronically filed (e-filed) by 2007.1 It costs more to process a paper tax return than an e-filed
return. Fewer mistakes are made by both taxpayers and the IRS with e-filed tax returns, further
reducing processing time and costs. Generally, all the taxpayers filing these unnecessary tax
returns would qualify to use the IRS Free File Program, which is a free Federal tax preparation
and e-filing program for eligible taxpayers. The Free File Program may offer the best
opportunity to direct taxpayers from paper filing to e-filing. We previously recommended the
IRS expand the marketing of the Free File Program by directing promotional materials to
taxpayers who are eligible for the Free File Program but have filed their returns on paper.2

Response
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




1
  IRS Restructuring and Reform Act of 1998, Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C.,
and 49 U.S.C.).
2
  Additional Action Is Needed to Expand the Use and Improve the Administration of the Free File Program
(Reference Number 2007-40-105, dated June 28, 2007).
                                                                                                                    2
                             Evaluation of the Characteristics of Unnecessarily Filed
                                         Individual Income Tax Returns




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Filing Unnecessary Tax Returns Creates Burden for
          Taxpayers and the Internal Revenue Service................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – 2007 Employee’s Withholding Allowance Certificate
          (Form W-4) ...................................................................................................Page 17
                     Evaluation of the Characteristics of Unnecessarily Filed
                                 Individual Income Tax Returns




                                  Abbreviations

e-file(d);e-filing         Electronically file(d); electronic filing
IRS                        Internal Revenue Service
                          Evaluation of the Characteristics of Unnecessarily Filed
                                      Individual Income Tax Returns




                                            Background

Unless exempt, every individual with income that equals or exceeds certain limits is required to
file a Federal income tax return. However, many people file tax returns only to obtain a refund
of taxes already paid or because they do not understand the tax law.
To determine whether a Federal tax return must be filed for a particular tax year, a taxpayer must
consider three factors: filing status, age at the end of the tax year, and amount of gross income.1
Figure 1 shows the Tax Year 2006 filing requirements for most individuals.
    Figure 1: Tax Year 2006 Filing Requirements for Most Individual Taxpayers
                                                                              Then File a Tax Return if
         If the Taxpayer’s           And at the End of 2006, the
                                                                              the Gross Income Was
         Filing Status Is . . .      Taxpayer Was . . .
                                                                              at Least . . .

         Single                                  Under 65                             $8,450
                                                65 or Older                           $9,700
                                                Under 65
         Married Filing Jointly                                                       $16,900
                                             (Both Spouses)
                                               65 or Older
                                              (One Spouse)                            $17,900
                                               65 or Older
                                             (Both Spouses)                           $18,900
         Married Filing
         Separately                              Any Age                              $3,300
         Head of Household                       Under 65                             $10,850
                                                65 or Older                           $12,100
         Qualifying Widow(er)
                                                 Under 65                             $13,600
         With Dependent Child
                                                65 or Older                           $14,600

       Source: Your Federal Income Tax for Individuals, For Use In Preparing 2006 Returns
       (Publication 17).




1
  Gross income is all income received in the form of money, goods, property, and services that is not exempt from
tax, including any income from sources outside the United States.
                                                                                                           Page 1
                     Evaluation of the Characteristics of Unnecessarily Filed
                                 Individual Income Tax Returns



Depending on filing status and age, if a taxpayer’s gross income is less than the standard
deduction amount plus the personal exemption (these sums are shown in the last column of
Figure 1), he or she may not have to file a Federal income tax return. The standard deduction
amount depends on filing status, whether the taxpayer is 65 or older or blind, and whether the
taxpayer’s personal exemption can be claimed by another taxpayer. The standard deduction is
higher for taxpayers who are 65 or older or blind.
If the standard deduction and the personal exemption exceed income, a taxpayer may not be
required to file a tax return. For example, when filing a 2006 tax return, a single taxpayer has a
standard deduction amount of $5,150 and a personal exemption of $3,300. As shown in
Figure 1, the taxpayer may not need to file if his or her income is not above $8,450 ($5,150 plus
$3,300).
However, taxpayers are required to file tax returns, even if they owe no tax, in the following
instances:
•   To report any special taxes (such as Alternative Minimum Tax, Household Employment Tax,
    or Social Security or Medicare tax on tips not reported to the employer).
•   To report the receipt of Advance Earned Income Tax Credit. The Earned Income Tax Credit
    is a refundable Federal tax credit for low-income working individuals and families. The
    Advance Earned Income Tax Credit allows those taxpayers who expect to qualify for the
    Credit and have at least one qualifying child to receive part of the Credit in each paycheck
    during the year in which the taxpayer qualifies for the Credit.
•   To report self-employment income of more than $400.
•   To report wages of $108.28 or more from a church or qualified church-controlled
    organization that is exempt from employer Social Security and Medicare taxes.
•   To report the sale of a principal residence.
If an individual does not meet the filing status, age, and income criteria specified, he or she does
not need to file a tax return but may want to file to get withheld tax back. The Internal Revenue
Service (IRS) states on IRS.gov (its public Internet web site) that many people will file a 2006
Federal income tax return although the income on the tax return is below the filing requirement.
IRS.gov provides assistance to help taxpayers determine if they need to file or if they need to
stop or adjust their tax withholding, so they will not have to file an unnecessary tax return in the
future.
This review was performed at the Wage and Investment Division Headquarters office in
Atlanta, Georgia, and the Wage and Investment Division Submission Processing office in
New Carrollton, Maryland, during the period August 2006 through May 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our


                                                                                              Page 2
                    Evaluation of the Characteristics of Unnecessarily Filed
                                Individual Income Tax Returns



audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                         Page 3
                         Evaluation of the Characteristics of Unnecessarily Filed
                                     Individual Income Tax Returns




                                       Results of Review

Filing Unnecessary Tax Returns Creates Burden for Taxpayers and
the Internal Revenue Service
Our evaluation of a statistical sample of tax returns filed for Tax Years 2003 through 2005
showed more than 8 million individual income tax returns each year were filed unnecessarily.
For the purposes of this report, an unnecessary tax return is defined as a return filed either to
obtain a refund of taxes already paid or because the individual did not understand the tax law,
even though the individual’s income did not meet the filing requirement (or threshold). Figure 2
shows the projected number of unnecessary tax returns based on our statistical sample of 310 tax
returns.2
             Figure 2: Projected Number of Unnecessary Tax Returns Filed
                                 (Tax Years 2003-2005)

        Tax                 Total             Estimated Number of                  Percentage of
        Year            Returns Filed       Unnecessary Tax Returns           Unnecessary Tax Returns
        2003             130,043,000                  8,262,083                            6.4%
        2004             130,583,000                  8,278,095                            6.3%
        2005             132,105,000                  8,537,837                            6.5%
        Total            392,731,000                 25,078,015                            6.4%

     Source: IRS Data Books3 and our analysis of IRS Master File4 data.

Collectively, taxpayers spent an average of $390 million and 75 million hours per year preparing
and filing these unnecessary tax returns, which consisted of the “Form 1040 series,” including
U.S. Individual Income Tax Return (Form 1040), U.S. Individual Income Tax Return (Form
1040A), and Income Tax Return for Single and Joint Filers With No Dependents (Form
1040EZ). The cost to taxpayers includes both time and money to prepare and file the tax returns
(including fees paid to preparers). Taxpayer monetary costs vary depending on the type of tax
return filed and the method used to file the tax return. Taxpayer time includes all aspects of

2
  Our sample was selected from the population of tax returns that did not appear to meet the filing threshold and did
not have any associated schedules, credits, or losses.
3
  The IRS Data Book (Publication 55B) is an annual publication that provides information about returns filed and
taxes collected, enforcement, taxpayer assistance, and the IRS budget and workforce.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                              Page 4
                         Evaluation of the Characteristics of Unnecessarily Filed
                                     Individual Income Tax Returns



filing a tax return, including recordkeeping, learning the tax law, and preparing and submitting
the tax return.
The IRS spent an average of $11 million to process the unnecessary tax returns each year.
According to the IRS, in Fiscal Year 2004, it cost $2.65 to process a paper tax return and
$0.29 to process an electronically filed (e-filed) tax return; in Fiscal Year 2005, the costs were
$2.87 and $.25, respectively.5 The IRS costs are summarized as “Processing Costs” and exceed
$33 million for the 3 years reviewed.
Figure 3 shows the costs of the unnecessary tax returns to both taxpayers and the IRS.
                      Figure 3: Costs of Filing Unnecessary Tax Returns
                                    (Tax Years 2003-2005)

                                                           Taxpayer
                        Tax            IRS                   Time            Taxpayer
                        Year     Processing Costs          in Hours        Monetary Costs
                        2003        $11,044,231           76,459,456         $396,092,431

                        2004        $11,700,800           79,287,713         $379,813,944

                        2005        $11,025,745           70,055,447         $394,901,076

                       Total        $33,770,776          225,802,616       $1,170,807,451
                      Source: Our analysis of cost data provided by the Wage and Investment
                      Division Research and Customer Account Services functions.

Our analyses of a statistical sample of 310 Tax Year 2003 through 2005 tax returns identified
289 (93 percent) unnecessary tax returns. Projected to the entire population of tax returns as
shown in Figure 2, this represents about 6 percent, or 8 million, unnecessary tax returns filed
each year.6 Additionally, test results on a second statistical sample of 271 unnecessary filers for
Tax Years 2003 through 2005 showed 258 (95 percent) of these taxpayers were considered
repeaters (i.e., the taxpayers had filed more than 1 unnecessary tax return in the 3 years tested);
26 percent had filed unnecessary tax returns in all 3 years.
Of additional significance is the population of unnecessary tax returns exhibits common
characteristics or trends the IRS could use to help market its electronic filing (e-filing) products,
modify taxpayers’ filing behaviors, and reduce costs to both the IRS and taxpayers.


5
  These are weighted average costs that may be more heavily weighted toward the more complex tax returns. In a
recent report, the Government Accountability Office stated that it could not independently verify IRS processing
cost estimates and that the basis is unclear because the IRS’ cost accounting system is unable to support preparation
of such cost estimates. Taxpayer Service: State Experiences Indicate IRS Would Face Challenges Developing an
Internet Filing System with Net Benefits (GAO-07-570, dated April 2007).
6
  Due to rounding, the percentages do not equal 100 percent.
                                                                                                              Page 5
                      Evaluation of the Characteristics of Unnecessarily Filed
                                  Individual Income Tax Returns



Fifteen percent of the tax returns that did not meet the income threshold for filing
generated no refunds
Of the 289 unnecessary tax returns tested, 42 (15 percent) did not generate refunds, and
30 (71 percent) of these 42 returns were filed by taxpayers over age 64. Almost one-half of the
42 returns were prepared by paid preparers, and 76 percent were filed on paper. Figure 4
provides the characteristics of the 42 returns that did not generate refunds.
                      Figure 4: Characteristics of Tax Returns That
                     Did Not Generate Refunds (Tax Years 2003-2005)
                                           Number of Returns
                                              per Tax Year
          Characteristic                 2003     2004     2005       Total   Percentage
          Returns by Year                 14         13       15       42       100%

          Over Age 64                     10         10       10       30        71%
          Ages 21 to 64                    4             2     4       10        24%
          Under Age 21                     0             1     1       2          5%
          Filed Form 1040                  7             6     4       17        41%
          Filed Form 1040A                 5             6     8       19        45%
          Filed Form 1040EZ                2             1     3       6         14%
          Used a Paid Preparer             7             5     7       19        45%
          E-Filed                          5             0     5       10        24%
          Filed on Paper                   9         13       10       32        76%
          Pension As Main
          Source of Income                 5             4     6       15        36%
          Average Income                $5,781     $5,856    $5,499
         Source: Our analysis of IRS Master File data.

While pensions were the main source of income for these taxpayers, all but three taxpayers
reported some form of income. Three taxpayers filed returns but had no income and claimed no
refunds. In addition, 25 (60 percent) of the 42 taxpayers who had filed unnecessary tax returns
had filed for more than 1 year: 11 (44 percent) had filed for 3 years, and 14 (56 percent) had
filed for 2 years.
Collectively, taxpayers spent an average of $63.1 million and 11.6 million hours per year
preparing and filing these unnecessary tax returns that did not generate a refund. The IRS spent
an average of $2.2 million to process these returns each year. Figure 5 shows the costs of the
unnecessary tax returns to both taxpayers and the IRS.


                                                                                           Page 6
                        Evaluation of the Characteristics of Unnecessarily Filed
                                    Individual Income Tax Returns



                    Figure 5: Costs of Filing Unnecessary Tax Returns
                   That Did Not Generate Refunds (Tax Years 2003-2005)

                                                         Taxpayer          Taxpayer
                        Tax           IRS                  Time            Monetary
                        Year    Processing Costs         in Hours           Costs
                        2003         $1,948,982          12,135,700       $64,706,922

                        2004         $2,753,901          9,975,228        $43,962,244

                        2005         $1,953,604          12,659,860       $80,526,658

                        Total        $6,656,487         34,770,788      $189,195,824

                     Source: Our analysis of cost data provided by the Wage and Investment
                     Division Research and Customer Account Services functions.

Eighty-five percent of the tax returns that did not meet the income threshold for
filing were filed to obtain refunds of all withheld taxes
For 247 (85 percent) of 289 unnecessary tax returns tested, the tax returns generated refunds.
More than one-half of the taxpayers were under age 21 and filed a Form 1040EZ, which is the
simplest form in the Form 1040 series. The main source of the refunds was over withholding.7
Figure 6 provides the characteristics of the tax returns tested that generated refunds.




7
  Taxpayers who are wage earners pay Federal income tax by having it withheld from their pay during the year.
This withholding is based on marital status and the number of allowances claimed when a taxpayer files an
Employee’s Withholding Allowance Certificate (Form W-4) with his or her employer. Employees meeting certain
criteria are eligible to claim exemption from withholding (meaning no Federal income tax should be withheld from
the wages).
                                                                                                         Page 7
                      Evaluation of the Characteristics of Unnecessarily Filed
                                  Individual Income Tax Returns



                        Figure 6: Characteristics of Tax Returns
                     That Generated Refunds (Tax Years 2003-2005)
                                          Number of Returns
                                             per Tax Year
           Characteristic               2003     2004     2005      Total   Percentage
           Returns by Year               81       88       78        247      100%

           Over Age 64                   12         7        7       26        11%
           Ages 21 to 64                 21         30      24       75        30%
           Under Age 21                  48         51      47      146        59%
           Filed Form 1040               21         14      15       50        20%
           Filed Form 1040A              18         18      14       50        20%
           Filed Form 1040EZ             42         56      49      147        60%
           Used a Paid Preparer          30         32      26       88        36%
           E-Filed                       31         38      29       98        40%
           Filed on Paper                50         50      49      149        60%
           Wages As Main
           Source of Income              72         77      69      218        88%
           Average Income              $4,022    $3,732    $4,071
            Average Refund              $251       $226    $237
           Source: Our analysis of IRS Master File data.

Collectively, taxpayers spent an average of $327 million and 64 million hours per year preparing
and filing these unnecessary tax returns that generated refunds. The IRS spent an average of $9
million processing these unnecessary tax returns each year. Figure 7 shows the costs of the
unnecessary tax returns to both taxpayers and the IRS.




                                                                                         Page 8
                     Evaluation of the Characteristics of Unnecessarily Filed
                                 Individual Income Tax Returns



                  Figure 7: Costs of Filing Unnecessary Tax Returns
                    That Generated Refunds (Tax Years 2003-2005)

                                                     Taxpayer          Taxpayer
                    Tax           IRS                  Time            Monetary
                    Year    Processing Costs         in Hours           Costs
                    2003        $9,095,249          64,323,756       $331,385,509

                    2004        $8,946,900          69,312,485       $335,851,700

                    2005        $9,072,141          57,395,587       $314,374,418

                    Total      $27,114,290         191,031,828      $981,611,627

                  Source: Our analysis of cost data provided by the Wage and Investment
                  Division Research and Customer Account Services functions.

We analyzed the second statistical sample of 271 taxpayers to identify those who had filed
unnecessary tax returns more than once and determined 258 (95 percent) had filed more
than 1 unnecessary tax return for Tax Years 2003 through 2005. Of the 258 taxpayers,
106 (41 percent) were under age 21, and 28 (26 percent) of those under age 21 had filed
unnecessary tax returns in all 3 years reviewed.
More than 50 percent of the unnecessary tax returns were filed by taxpayers under age 21
For 148 (51 percent) of the 289 unnecessary tax returns identified, the taxpayers were under
age 21 and obtained refunds of all Federal taxes withheld.
•   Income ranged from $34 to $10,011. Only 7 percent (11 of 148) had income more than
    $5,000.
•   Refunds ranged from $3 to $753.
•   Seventy-six percent (113 of 148) of those under age 21 indicated they could be claimed as
    dependents on other taxpayers’ tax returns. They would have been exempt from tax
    withholding because they earned less income than that required to file a return and they
    could be claimed as dependents on other taxpayers’ returns.
The IRS explains withholding and the requirements for it in various publications and on
IRS.gov
The IRS explains withholding and the requirements for it in various publications, including How
Do I Adjust My Tax Withholding? (Publication 919), and provides a “Withholding Calculator” on
IRS.gov. The purpose of this Calculator is to help employees ensure they do not have too much
or too little income tax withheld from their pay. The IRS states the Calculator is not a
replacement for the Employee’s Withholding Allowance Certificate (Form W-4), but most
people will find it more accurate and easier to use than the worksheets accompanying Form W-4.

                                                                                             Page 9
                     Evaluation of the Characteristics of Unnecessarily Filed
                                 Individual Income Tax Returns



Employees may use the results of this program to help them complete a new Form W-4, which
they will submit to their employers.
IRS.gov also includes a webpage entitled Tax Information for Students, which explains the
requirements for withholding and advises taxpayers that, if their income is below the filing
threshold for their age, filing status, and dependency status, they will not owe income tax on the
income and will not have to file a tax return. They may choose to file if they have income tax
withholding and want to have it refunded.
However, most students or first-time job seekers are asked to complete their Forms W-4 the first
day at their new jobs. They may not research IRS publications or IRS.gov before filling out their
forms, relying instead on the instructions on the Form itself for this information. Form W-4 is
two pages long, including instructions and worksheets. IRS officials stated adding additional
text to the Form would make it even more difficult to read.
In addition, they are reluctant to advise taxpayers who may just be entering the job market to
claim exemption from withholding at the risk of possibly owing taxes. Taxpayers could earn
more than anticipated, resulting in taxes owed if the employers did not withhold taxes. Further,
according to the IRS, some taxpayers prefer to receive refunds rather than face the possibility of
owing taxes when the returns are filed. As such, some taxpayers use withholding as a means of
accumulating savings.
There is merit to concerns about the potential negative consequences of advising taxpayers to
claim exemption from withholding; consequently, we are making no related recommendations at
this time. Nevertheless, the IRS could, at a minimum, reduce its burden if taxpayers moved from
preparing and submitting their returns on paper to e-filing.

More than 60 percent of the unnecessary tax returns were filed on paper but
would qualify for free e-filing through IRS.gov
As shown in Figure 8, 181 (63 percent) of the 289 unnecessary tax returns tested were prepared
and submitted on paper. Sixty (33 percent) of the 181 paper returns were prepared using tax
preparation software on a personal computer, then printed and submitted on paper.




                                                                                           Page 10
                        Evaluation of the Characteristics of Unnecessarily Filed
                                    Individual Income Tax Returns



    Figure 8: Methods Used to File Unnecessary Tax Returns (Tax Years 2003-2005)


                                                                                        E-filed
                                                                                         37%




                  Paper Filed
                     63%


                 Source: Our analysis of IRS Master File data.

The law8 established a goal for the IRS to have 80 percent of Federal tax and information returns
e-filed by 2007. It costs more to process a paper return than an e-filed return. Fewer mistakes
are made by both taxpayers and the IRS with e-filed tax returns, further reducing processing time
and costs.
Generally, all the taxpayers filing these unnecessary tax returns would qualify to use the IRS
Free File Program, which is a free Federal tax preparation and e-filing program for eligible
taxpayers developed through a partnership between the IRS and a group of private-sector tax
software companies. Taxpayers who meet certain criteria (for Tax Year 2006 returns, taxpayers
with an Adjusted Gross Income9 of $52,000 or less) can electronically file (e-file) their Federal
tax returns for free through IRS.gov.
Compared to other methods of filing, the Free File Program accounts for a small portion of
individual tax returns filed. Only 3 percent of individual taxpayers used the Free File Program
in 2006. We recently completed an audit of the Free File Program and reported10 there are three
main barriers to use of the Program: awareness, computer literacy, and tax return complexity.
The Program’s low participation rate may be an indicator that few taxpayers know about or
understand they may be eligible for the Free File Program. The IRS recently conducted focus
groups of taxpayers and also found awareness was one of the main challenges facing the
Program.




8
  IRS Restructuring and Reform Act of 1998, Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C.,
and 49 U.S.C.).
9
  Adjusted gross income is income less certain deductions and/or expenses.
10
   Additional Action Is Needed to Expand the Use and Improve the Administration of the Free File Program
(Reference Number 2007-40-105, dated June 28, 2007).
                                                                                                         Page 11
                        Evaluation of the Characteristics of Unnecessarily Filed
                                    Individual Income Tax Returns



Defining the population of taxpayers who file unnecessary tax returns would help the IRS
direct these taxpayers to less expensive and less burdensome filing methods
Previously, the IRS had attempted to reduce the number of unnecessary tax returns filed by
issuing notices to affected taxpayers but determined the notices were not effective in doing this.
While issuing notices to taxpayers may not have been effective, other education and marketing
tools have been successful.
The IRS directed its marketing efforts successfully in the past with the creation of the
TeleFile Program.11 It sent TeleFile Program packages to taxpayers who, based on their income
and filing patterns, appeared to be eligible to use this Program. Such a direct-mail approach with
the Free File Program may be the best avenue to reach eligible taxpayers and may also serve as a
vehicle for providing information to taxpayers about tax withholding exemptions.
The Free File Program also may offer the best opportunity to direct taxpayers who file
                                 unnecessary tax returns from paper filing to e-filing. Because
                                 there is a risk associated with reducing tax withholdings,
                                 directing taxpayers to free e-filing could alleviate the cost and
                                 burden of unnecessary tax returns to both taxpayers and the IRS.
By converting these taxpayers from paper filing to e-filing, the IRS could save an average of
$9.1 million per year in processing costs.
We previously recommended the IRS expand the marketing of the Free File Program by
directing promotional materials to taxpayers who are eligible for the Free File Program but have
filed their returns on paper, and the IRS agreed with the recommendation. Unnecessary filers are
a defined population that should be included in these marketing efforts. Because we have
already recommended expanding Free File Program marketing, we are making no additional
recommendations at this time.




11
  The TeleFile Program, discontinued in Fiscal Year 2005, was a service that enabled taxpayers to file their
Forms 1040EZ by telephone. Taxpayers called the IRS using a toll-free telephone number and, via automated
prompts, entered the tax return information using their telephone keypads.




                                                                                                         Page 12
                           Evaluation of the Characteristics of Unnecessarily Filed
                                       Individual Income Tax Returns



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the steps the IRS has taken or plans to take
to reduce the number of unnecessary tax returns filed, including the means used to notify and
educate taxpayers that they may no longer be required to file tax returns. To accomplish our
objective, we:
I.         Determined if the IRS has a strategy to reduce the number of unnecessary tax returns
           filed.
           A. Discussed with IRS officials their current and future plans for reducing unnecessary
              tax return filings and reviewed information available on IRS.gov.
           B. Discussed with IRS management prior studies and research on unnecessary tax return
              filings.
           C. Determined if the IRS is currently tracking/monitoring the number of unnecessary tax
              returns filed.
II.        Identified the current and prior filing requirements as prescribed by law and IRS
           guidelines.
III.       Determined the population of unnecessary tax returns filed, how many taxpayers filed
           unnecessary tax returns repeatedly, and how many returns had been previously identified
           by the IRS as unnecessary.
           A. Consulted our contract statistician and selected a statistical sample of potential
              unnecessary filers. We obtained a data extract from the Individual Master File1 of all
              potentially unnecessary tax returns filed for Tax Years 2003 – 2005 using the income
              filing requirement criteria imposed on each taxpayer based on their filing status and
              age in the stated tax year.
                We further refined the population by eliminating those tax returns containing certain
                schedules associated with U.S. Individual Income Tax Return (Form 1040) including
                Itemized Deductions (Schedule A), Profit or Loss From Business (Schedule C),
                Capital Gains and Losses (Schedule D), Supplemental Income and Loss (Schedule E),
                and Profit or Loss From Farming (Schedule F). We also eliminated other Form 1040
                series returns and returns where other criteria were met, such as:


1
    The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                               Page 13
                   Evaluation of the Characteristics of Unnecessarily Filed
                               Individual Income Tax Returns



             •   U.S. Departing Alien Income Tax Return (Form 1040-C).
             •   U.S. Nonresident Alien Income Tax Return (Form 1040NR).
             •   U.S. Self-Employment Tax Return-Puerto Rico (Form 1040-PR).
             •   U.S. Self-Employment Tax Return (Including the Additional Child Tax Credit
                 for Bona Fide Residents of Puerto Rico) (Form 1040-SS).
             •   Tax returns filed with Sales of Business Property (Form 4797).
             •   Tax returns where a credit was claimed.
             •   Tax returns claiming a loss on the “Other Income” line of Form 1040.
         This resulted in 9.4 million records for Tax Year 2003, 8.9 million records for Tax
         Year 2004, and 8.6 million records for Tax Year 2005.
         From this population of more than 26 million tax returns, we selected a statistically
         valid sample of 310 tax returns using a confidence level of 95 percent, a precision
         level of +5 percent, and an estimated error rate of 28 percent. We determined the
         reliability of the data extract by comparing critical fields on a small number of cases
         to the same fields on the Individual Master File.
      B. Selected a second statistical sample from the data extract in Step III.A of taxpayers
         who had filed more than one unnecessary tax return. We obtained an extract of all
         taxpayers who had filed repeat unnecessary tax returns for Tax Years 2003 – 2005 by
         identifying unique taxpayer identification numbers and performing a match to
         identify taxpayers with tax returns in at least more than 1 year. From this population
         of almost 6 million records, we selected a statistically valid sample of 271 tax returns,
         using a confidence level of 90 percent, a precision level of +5 percent, and an
         estimated error rate of 50 percent.
IV.   Determined the impact unnecessary tax returns have on taxpayers and the IRS.
      A. Determined how many taxpayers used a paid preparer to prepare their tax returns and
         how many taxpayers e-filed.
      B. Determined other costs associated with preparing and filing unnecessary tax returns,
         such as estimated time to prepare the tax return, mailing costs, and processing costs.




                                                                                          Page 14
                   Evaluation of the Characteristics of Unnecessarily Filed
                               Individual Income Tax Returns



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Sharon Shepherd, Lead Auditor
Jerome Antoine, Auditor
Patricia Jackson, Auditor
Geraldine Vaughn, Auditor
James Allen, Information Technology Specialist
Martha Stewart, Information Technology Specialist




                                                                                   Page 15
                   Evaluation of the Characteristics of Unnecessarily Filed
                               Individual Income Tax Returns



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Chief Counsel CC
National Taxpayer Advocate TA
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 16
              Evaluation of the Characteristics of Unnecessarily Filed
                          Individual Income Tax Returns



                                                             Appendix IV

2007 Employee’s Withholding Allowance Certificate
                   (Form W-4)




     Source: IRS.gov.

                                                                    Page 17
